                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A-02040028                                                                      Page 1 of 1



      On 1 May 2002, we received an allegation of possible intellectual theft in an email from a NSF ad
      hoc reviewer (the complainant).' The complainant's email explained that she could not review the
      subjects' NSF proposal2 because it contained an idea that appeared to be hers, but had not been
      acknowledged appropriately in the proposal. The idea allegedly came from the complainant's
      manuscript, a copy of which she said she sent to one of the subjects3at his request prior to his
      submission of the proposal. The complainant did not review the subjects' proposal because of this
      proclaimed COI.

      We contacted the complainant to learn more about the alleged theft of the idea. The complainant,
      however, told us that it was not a serious issue. The complainant explained that she had presented
      the idea in her manuscript at a public scientific meeting as well. Further, she refused to provide a
      copy of the manuscript that had allegedly been sent to one of the subjects. Finally, the complainant
      told us that the only reason she provided the details about the idea in her email to NSF was to explain
      why she refused to review the subjects' proposal.

      Without a copy of the manuscript shared with one of the subjects and without fwther specific
      information from the complainant about the alleged stolen idea, we are unable to effectively evaluate
      the substance of the allegation.

      This case is closed and no further action will be taken.




      ' The complainant is
        m.




                             Agent                Attorney                Supervisor                  AIGI

  Sign / date
